                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

. Case Number: AI0020012                                                                                        Page I of I



                 NSF received a proposal I describing work requiring numerous collaborative associations with
         researchers around the world. The          pe
                                                  included numerous letters from the purported colleagues to
         support his asserted collaborative efforts. The panelists and program officer specifically reviewed
         these letters favorably with regard to both scientific merit and broader impacts. It was subsequently
         alleged that the ongoing nature of at least one of the collaborations had been falsified.

                 Our inquiry identified 10 letters in the proposal which had been recycled from 3 previous
         proposals (2 awardedi with dates either removed or altered to be contemporaneous with the
         proposal. 4 When contacted, the PI admitted that 2 ofthe collaborations were not in fact ongoing, but
         that he failed to adequately review the proposal before submission. He indicated that his student5
         had prepared the electronic files for proposal submission via FastLane. Further investigation was
         necessary in order to determine whether a finding ofresearch misconduct for falsifying his ability to
         carry out the proposed research was warranted. 6

                  We referred an investigation to the university7. The university conducted an inquiry and
         concluded that the act was honest error, noting that the PI would be retiring shortly and such an event
         was unlikely to happen again. Based on the evidence in the university inquiry report, we conclude
         that the PI's actions were egregiously sloppy with respect to his preparation ofthe proposal and also
         call into question the training of his students in the responsible Conduct of research.

                   Accordingly, this case is closed.




         4 Several of the recycled letters also failed to reflect promotions along the tenure track for several ofthe purported
         collaborators.
         5 _ _




NSF OIG Form 2 (11/02)
